<html>
<title> - RULES OF PROCEDURE for the PERMANENT SELECT COMMITTEE ON INTELLIGENCE UNITED STATES HOUSE OF REPRESENTATIVES 110TH CONGRESS [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



 
                           RULES OF PROCEDURE

                                for the

                       PERMANENT SELECT COMMITTEE

                                   ON

                              INTELLIGENCE

                 UNITED STATES HOUSE OF REPRESENTATIVES

                             110TH CONGRESS

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]











                                --------

                        U.S. GOVERNMENT PRINTING OFFICE

34-977                        WASHINGTON : 2007



























               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                    SILVESTRE REYES, Texas, Chairman
ALCEE L. HASTINGS, Florida           PETER HOEKSTRA, Michigan
LEONARD L. BOSWELL, Iowa             TERRY EVERETT, Alabama
ROBERT E. (BUD) CRAMER, Alabama      ELTON GALLEGLY, California
ANNA G. ESHOO, California            HEATHER WILSON, New Mexico
RUSH D. HOLT, New Jersey             MAC THORNBERRY, Texas
C.A. DUTCH RUPPERSBERGER, Maryland   JOHN M. McHUGH, New York
JOHN F. TIERNEY, Massachusetts       TODD TIAHRT, Kansas
MIKE THOMPSON, California            MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       DARRELL E. ISSA, California
JAMES R. LANGEVIN, Rhode Island
PATRICK J. MURPHY, Pennsylvania

          Nancy Pelosi, California, Speaker, Ex Officio Member
       John A. Boehner, Ohio, Minority Leader, Ex Officio Member

                    Michael Delaney, Staff Director


























 RULES OF PROCEDURE FOR THE PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                 UNITED STATES HOUSE OF REPRESENTATIVES

                             110TH CONGRESS

              (House of Representatives--January 18, 2007)

 Rules of Procedure for the Permanent Select Committee on Intelligence


                             1. meeting day


    Regular Meeting Day for the Full Committee. The regular 
meeting day of the Committee for the transaction of Committee 
business shall be the first Wednesday of each month, unless 
otherwise directed by the Chairman.


                         2. notice for meetings


    (a) Generally.--In the case of any meeting of the 
Committee, the Chief Clerk of the Committee shall provide 
reasonable notice to every Member of the Committee. Such notice 
shall provide the time and place of the meeting.
    (b) Definition.--For purposes of this rule, ``reasonable 
notice'' means:
          (1) Written notification;
          (2) Delivered by facsimile transmission, regular 
        mail, or electronic mail that is
                  (A) Delivered no less than 24 hours prior to 
                the event for which notice is being given, if 
                the event is to be held in Washington, D.C.; or
                  (B) Delivered no less than 48 hours prior to 
                the event for which notice is being given, if 
                the event is to be held outside Washington, 
                D.C.
    (c) Exception.--In extraordinary circumstances only, the 
Chairman may, after consulting with the Ranking Minority 
Member, call a meeting of the Committee without providing 
notice, as defined in subparagraph (b), to Members of the 
Committee.


                 3. preparations for committee meetings


    (a) Generally.--Designated Committee Staff, as directed by 
the Chairman, shall brief Members of the Committee at a time 
sufficiently prior to any Committee meeting in order to:
          (1) Assist Committee Members in preparation for such 
        meeting; and
          (2) Determine which matters Members wish considered 
        during any meeting.
    (b) Briefing Materials.--
          (1) Such a briefing shall, at the request of a 
        Member, include a list of all pertinent papers, and 
        such other materials, that have been obtained by the 
        Committee that bear on matters to be considered at the 
        meeting; and
          (2) The Staff Director shall also recommend to the 
        Chairman any testimony, papers, or other materials to 
        be presented to the Committee at the meeting of the 
        Committee.


                            4. open meetings


    (a) Generally.--Pursuant to Rule XI of the House, but 
subject to the limitations of subsections (b) and (c), 
Committee meetings held for the transaction of business and 
Committee hearings shall be open to the public.
    (b) Meetings.--Any meeting or portion thereof, for the 
transaction of business, including the markup of legislation, 
or any hearing or portion thereof, shall be closed to the 
public, if the Committee determines by record vote in open 
session, with a majority of the Committee present, that 
disclosure of the matters to be discussed may:
          (1) Endanger national security;
          (2) Compromise sensitive law enforcement information;
          (3) Tend to defame, degrade, or incriminate any 
        person; or
          (4) Otherwise violate any law or Rule of the House.
    (c) Hearings.--The Committee may vote to close a Committee 
hearing pursuant to House Rule X, clause 11(d)(2), regardless 
of whether a majority is present, so long as at least two 
Members of the Committee are present, one of whom is a member 
of the Minority and votes upon the motion.
    (d) Briefings.--The Committee briefings shall be closed to 
the public.


                               5. quorum


    (a) Hearings.--For purposes of taking testimony, or 
receiving evidence, a quorum shall consist of two Committee 
Members, at least one of whom is a member of the Majority.
    (b) Other Committee Proceedings.--For purposes of the 
transaction of all other Committee business, other than the 
consideration of a motion to close a hearing as described in 
rule 4(c), a quorum shall consist of a majority of Members.


                 6. procedures for amendments and votes


    (a) Amendments.--When a bill or resolution is being 
considered by the Committee, Members shall provide the Chief 
Clerk in a timely manner with a sufficient number of written 
copies of any amendment offered, so as to enable each Member 
present to receive a copy thereof prior to taking action. A 
point of order may be made against any amendment not reduced to 
writing. A copy of each such amendment shall be maintained in 
the public records of the Committee.
    (b) Reporting Recorded Votes.--Whenever the Committee 
reports any measure or matter by record vote, the report of the 
Committee upon such measure or matter shall include a 
tabulation of the votes cast in favor of, and the votes cast in 
opposition to, such measure or matter.
    (c) Postponement of Further Proceedings.--In accordance 
with clause 2(h) of House Rule XI, the Chairman is authorized 
to postpone further proceedings when a record vote is ordered 
on the question of approving a measure or matter or adopting an 
amendment. The Chairman may resume proceedings on a postponed 
request at any time after reasonable notice. When proceedings 
resume on a postponed question, notwithstanding any intervening 
order for the previous question, an underlying proposition 
shall remain subject to further debate or amendment to the same 
extent as when the question was postponed.


                            7. subcommittees


    (a) Generally.--
          (1) Creation of subcommittees shall be by majority 
        vote of the Committee.
          (2) Subcommittees shall deal with such legislation 
        and oversight of programs and policies as the Committee 
        may direct.
          (3) Subcommittees shall be governed by these rules.
          (4) For purposes of these rules, any reference herein 
        to the ``Committee'' shall be interpreted to include 
        subcommittees, unless otherwise specifically provided.
    (b) Establishment of Subcommittees.--The Committee 
establishes the following subcommittees:
          (1) Subcommittee on Terrorism, Human Intelligence, 
        Analysis, and Counterintelligence;
          (2) Subcommittee on Technical and Tactical 
        Intelligence;
          (3) Subcommittee on Oversight and Investigations; 
        and,
          (4) Subcommittee on Intelligence Community 
        Management.
    (c) Subcommittee Membership.--
          (1) Generally.--Each Member of the Committee may be 
        assigned to at least one of the four subcommittees.
          (2) Ex Officio Membership.--In the event that the 
        Chairman and Ranking Minority Member of the full 
        Committee do not choose to sit as regular voting 
        members of one or more of the subcommittees, each is 
        authorized to sit as an ex officio member of the 
        subcommittees and participate in the work of the 
        subcommittees. When sitting ex officio, however, they:
                  (A) Shall not have a vote in the 
                subcommittee; and
                  (B) Shall not be counted for purposes of 
                determining a quorum.
    (d) Regular Meeting Day for Subcommittees.--There is no 
regular meeting day for subcommittees.

        8. PROCEDURES FOR TAKING TESTIMONY OR RECEIVING EVIDENCE

    (a) Notice.--Adequate notice shall be given to all 
witnesses appearing before the Committee.
    (b) Oath or Affirmation.--The Chairman may require 
testimony of witnesses to be given under oath or affirmation.
    (c) Administration of Oath or Affirmation.--Upon the 
determination that a witness shall testify under oath or 
affirmation, any Member of the Committee designated by the 
Chairman may administer the oath or affirmation.
    (d) Questioning of Witnesses.--
          (1) Generally.--Questioning of witnesses before the 
        Committee shall be conducted by Members of the 
        Committee.
        (2) Exceptions.--
                  (A) The Chairman, in consultation with the 
                Ranking Minority Member, may determine that 
                Committee Staff will be authorized to question 
                witnesses at a hearing in accordance with 
                clause (2)(j) of House Rule XI.
                  (B) The Chairman and Ranking Minority Member 
                are each authorized to designate Committee 
                Staff to conduct such questioning.
    (e) Counsel for the Witness.--
          (1) Generally.--Witnesses before the Committee may be 
        accompanied by counsel, subject to the requirements of 
        paragraph (2).
          (2) Counsel Clearances Required.--In the event that a 
        meeting of the Committee has been closed because the 
        subject to be discussed deals with classified 
        information, counsel accompanying a witness before the 
        Committee must possess the requisite security clearance 
        and provide proof of such clearance to the Committee at 
        least 24 hours prior to the meeting at which the 
        counsel intends to be present.
          (3) Failure To Obtain Counsel.--Any witness who is 
        unable to obtain counsel should notify the Committee. 
        If such notification occurs at least 24 hours prior to 
        the witness' appearance before the Committee, the 
        Committee shall then endeavor to obtain voluntary 
        counsel for the witness. Failure to obtain counsel, 
        however, will not excuse the witness from appearing and 
        testifying.
          (4) Conduct of Counsel for Witnesses.--Counsel for 
        witnesses appearing before the Committee shall conduct 
        themselves ethically and professionally at all times in 
        their dealings with the Committee.
                  (A) A majority of Members of the Committee 
                may, should circumstances warrant, find that 
                counsel for a witness before the Committee 
                failed to conduct himself or herself in an 
                ethical or professional manner.
                  (B) Upon such finding, counsel may be subject 
                to appropriate disciplinary action.
          (5) Temporary Removal of Counsel.--The Chairman may 
        remove counsel during any proceeding before the 
        Committee for failure to act in an ethical and 
        professional manner.
          (6) Committee Reversal.--A majority of the Members of 
        the Committee may vote to overturn the decision of the 
        Chairman to remove counsel for a witness.
          (7) Role of Counsel for Witness.--
                  (A) Counsel for a witness:
                          (i) Shall not be allowed to examine 
                        witnesses before the Committee, either 
                        directly or through cross-examination; 
                        but
                          (ii) May submit questions in writing 
                        to the Committee that counsel wishes 
                        propounded to a witness; or
                          (iii) May suggest, in writing to the 
                        Committee, the presentation of other 
                        evidence or the calling of other 
                        witnesses.
                  (B) The Committee may make such use of any 
                such questions, or suggestions, as the 
                Committee deems appropriate.
    (f) Statements by Witnesses.--
          (1) Generally.--A witness may make a statement, which 
        shall be brief and relevant, at the beginning and at 
        the conclusion of the witness' testimony.
          (2) Length.--Each such statement shall not exceed 
        five minutes in length, unless otherwise determined by 
        the Chairman.
          (3) Submission to the Committee.--Any witness 
        desiring to submit a written statement for the record 
        of the proceeding shall submit a copy of the statement 
        to the Chief Clerk of the Committee.
                  (A) Such statements shall ordinarily be 
                submitted no less than 48 hours in advance of 
                the witness' appearance before the Committee 
                and shall be submitted in written and 
                electronic format.
                  (B) In the event that the hearing was called 
                with less than 24 hours notice, written 
                statements should be submitted as soon as 
                practicable prior to the hearing.
    (g) Objections and Ruling.--
          (1) Generally.--Any objection raised by a witness, or 
        counsel for the witness, shall be ruled upon by the 
        Chairman, and such ruling shall be the ruling of the 
        Committee.
          (2) Committee Action.--A ruling by the Chairman may 
        be overturned upon a majority vote of the Committee.
    (h) Transcripts.--
        (1) Transcript Required.--A transcript shall be made of 
        the testimony of each witness appearing before the 
        Committee during any hearing of the Committee.
          (2) Opportunity To Inspect.--Any witness testifying 
        before the Committee shall be given a reasonable 
        opportunity to inspect the transcript of the hearing, 
        and may be accompanied by counsel to determine whether 
        such testimony was correctly transcribed. Such counsel:
                  (A) May review the transcript only if he or 
                she has the appropriate security clearances 
                necessary to review any classified aspect of 
                the transcript; and
                  (B) Should, to the extent possible, be the 
                same counsel that was present for such 
                classified testimony.
          (3) Corrections.--
                  (A) Pursuant to Rule XI of the House Rules, 
                any corrections the witness desires to make in 
                a transcript shall be limited to technical, 
                grammatical, and typographical corrections.
                  (B) Corrections may not be made to change the 
                substance of the testimony.
                  (C) Such corrections shall be submitted in 
                writing to the Committee within 7 days after 
                the transcript is made available to the 
                witnesses.
                  (D) Any questions arising with respect to 
                such corrections shall be decided by the 
                Chairman.
          (4) Copy for the Witness.--At the request of the 
        witness, any portion of the witness's testimony given 
        in executive session shall be made available to that 
        witness if that testimony is subsequently quoted or 
        intended to be made part of a public record. Such 
        testimony shall be made available to the witness at the 
        witness's expense.
    (i) Requests To Testify.--
          (1) Generally.--The Committee will consider requests 
        to testify on any matter or measure pending before the 
        Committee.
          (2) Recommendations for Additional Evidence.--Any 
        person who believes that testimony, other evidence, or 
        commentary, presented at a public hearing may tend to 
        affect adversely that person's reputation may submit to 
        the Committee, in writing:
                  (A) A request to appear personally before the 
                Committee;
                  (B) A sworn statement of facts relevant to 
                the testimony, evidence, or commentary; or
                  (C) Proposed questions for the cross-
                examination of other witnesses.
          (3) Committees Discretion.--The Committee may take 
        those actions it deems appropriate with respect to such 
        requests.
    (j) Contempt Procedures.--Citations for contempt of 
Congress shall be forwarded to the House only if:
          (1) Reasonable notice is provided to all Members of 
        the Committee of a meeting to be held to consider any 
        such contempt recommendations;
          (2) The Committee has met and considered the contempt 
        allegations;
          (3) The subject of the allegations was afforded an 
        opportunity to state either in writing or in person, 
        why he or she should not be held in contempt; and
          (4) The Committee agreed by majority vote to forward 
        the citation recommendations to the House.
    (k) Release of Name of Witness.--
        (1) Generally.--At the request of a witness scheduled 
        to be heard by the Committee, the name of that witness 
        shall not be released publicly prior to, or after, the 
        witness's appearance before the Committee.
          (2) Exceptions.--Notwithstanding paragraph (1), the 
        chairman may authorize the release to the public of the 
        name of any witness scheduled to appear before the 
        Committee.

                           9. INVESTIGATIONS

    (a) Commencing Investigations.--The Committee shall conduct 
investigations only if approved by the Chairman, in 
consultation with the Ranking Minority Member.
    (b) Conducting Investigation.--An authorized investigation 
may be conducted by Members of the Committee or Committee Staff 
members designated by the Chairman, in consultation with the 
Ranking Minority Member, to undertake any such investigation.

                             10. SUBPOENAS

    (a) Generally.--All subpoenas shall be authorized by the 
Chairman of the full Committee, upon consultation with the 
Ranking Minority Member, or by vote of the Committee.
    (b) Subpoena Contents.--Any subpoena authorized by the 
Chairman of the full Committee, or the Committee, may compel:
          (1) The attendance of witnesses and testimony before 
        the Committee, or
          (2) The production of memoranda, documents, records, 
        or any other tangible item.
    (c) Signing of Subpoena.--A subpoena authorized by the 
Chairman of the full Committee, or the Committee, may be signed 
by the Chairman, or by any Member of the Committee designated 
to do so by the Committee.
    (d) Subpoena Service.--A subpoena authorized by the 
Chairman of the full Committee, or the Committee, may be served 
by any person designated to do so by the Chairman.
    (e) Other Requirements.--Each subpoena shall have attached 
thereto a copy of these rules.

                          11. COMMITTEE STAFF

    (a) Definition.--For the purpose of these rules, 
``Committee Staff'' or ``Staff of the Committee'' means:
          (1) Employees of the Committee;
          (2) Consultants to the Committee;
          (3) Employees of other Government agencies detailed 
        to the Committee; or
          (4) Any other person engaged by contract, or 
        otherwise, to perform services for, or at the request 
        of, the Committee.
    (b) Appointment of Committee Staff and Security 
Requirements.--
          (1) Chairman's Authority.--Except as provided in 
        paragraph (2), the Committee Staff shall be appointed, 
        and may be removed, by the Chairman and shall work 
        under the general supervision and direction of the 
        Chairman.
          (2) Staff Assistance to Minority Membership.--Except 
        as provided in paragraphs (3) and (4) and except as 
        otherwise provided by Committee Rules, the Committee 
        Staff provided to the Minority Party Members of the 
        Committee shall be appointed, and may be removed, by 
        the Ranking Minority Member of the Committee, and shall 
        work under the general supervision and direction of 
        such member.
          (3) Security Clearance Required.--All offers of 
        employment for prospective Committee Staff positions 
        shall be contingent upon:
                  (A) The results of a background 
                investigation; and
                  (B) A determination by the Chairman that 
                requirements for the appropriate security 
                clearances have been met.
          (4) Security Requirements.--Notwithstanding paragraph 
        (2), the Chairman shall supervise and direct the 
        Committee Staff with respect to the security and 
        nondisclosure of classified information. Committee 
        Staff shall comply with requirements necessary to 
        ensure the security and nondisclosure of classified 
        information as determined by the Chairman in 
        consultation with the Ranking Minority Member.

      12. LIMIT ON DISCUSSION OF CLASSIFIED WORK OF THE COMMITTEE

    (a) Prohibition.--
          (1) Generally.--Except as otherwise provided by these 
        rules and the Rules of the House of Representatives, 
        Members and Committee Staff shall not at any time, 
        either during that person's tenure as a Member of the 
        Committee or as Committee Staff, or anytime thereafter, 
        discuss or disclose, or cause to be discussed or 
        disclosed:
                  (A) The classified substance of the work of 
                the Committee;
                  (B) Any information received by the Committee 
                in executive session;
                  (C) Any classified information received by 
                the Committee from any source; or
                  (D) The substance of any hearing that was 
                closed to the public pursuant to these rules or 
                the Rules of the House.
          (2) Non-Disclosure in Proceedings.--
                  (A) Members of the Committee and the 
                Committee Staff shall not discuss either the 
                substance or procedure of the work of the 
                Committee with any person not a Member of the 
                Committee or the Committee Staff in connection 
                with any proceeding, judicial or otherwise, 
                either during the person's tenure as a Member 
                of the Committee, or of the Committee Staff, or 
                at any time thereafter, except as directed by 
                the Committee in accordance with the Rules of 
                the House and these rules.
                  (B) In the event of the termination of the 
                Committee, Members and Committee Staff shall be 
                governed in these matters in a manner 
                determined by the House concerning discussions 
                of the classified work of the Committee.
          (3) Exceptions.--
                  (A) Notwithstanding the provisions of 
                subsection (a)(1), Members of the Committee and 
                the Committee Staff may discuss and disclose 
                those matters described in subsection (a)(1) 
                with:
                          (i) Members and staff of the Senate 
                        Select Committee on Intelligence 
                        designated by the chairman of that 
                        committee;
                          (ii) The chairmen and ranking 
                        minority members of the House and 
                        Senate Committees on Appropriations and 
                        staff of those committees designated by 
                        the chairmen of those committees;
                          (iii) The chairman and ranking 
                        minority member of the Subcommittee on 
                        Defense of the House Committee on 
                        Appropriations and staff of that 
                        subcommittee as designated by the 
                        chairman of that subcommittee; and
                          (iv) Members and staff of the 
                        Intelligence Oversight Panel of the 
                        House Appropriations Committee 
                        designated by the chairman of that 
                        panel.
                  (B) Notwithstanding the provisions of 
                subsection (a)(1), Members of the Committee and 
                the Committee Staff may discuss and disclose 
                only that budget-related information necessary 
                to facilitate the enactment of the annual 
                defense authorization bill with the chairmen 
                and ranking minority members of the House and 
                Senate Committees on Armed Services and the 
                staff of those committees designated by the 
                chairmen of those committees.
                  (C) Notwithstanding the provisions of 
                subsection (a)(1), Members of the Committee and 
                the Committee Staff may discuss with and 
                disclose to the chairman and ranking minority 
                member of a subcommittee of the House 
                Appropriations Committee with jurisdiction over 
                an agency or program within the National 
                Intelligence Program (NIP), and staff of that 
                subcommittee as designated by the chairman of 
                that subcommittee, only that budget-related 
                information necessary to facilitate the 
                enactment of an appropriations bill within 
                which is included an appropriation for an 
                agency or program within the NIP.
                  (D) The Chairman may, in consultation with 
                the Ranking Minority Member, upon the written 
                request to the Chairman from the Inspector 
                General of an element of the Intelligence 
                Community, grant access to Committee 
                transcripts or documents that are relevant to 
                an investigation of an allegation of possible 
                false testimony or other inappropriate conduct 
                before the Committee, or that are otherwise 
                relevant to the Inspector General's 
                investigation.
                  (E) Upon the written request of the head of 
                an Intelligence Community element, the Chairman 
                may, in consultation with the Ranking Minority 
                Member, make available Committee briefing or 
                hearing transcripts to that element for review 
                by that element if a representative of that 
                element testified, presented information to the 
                Committee, or was present at the briefing or 
                hearing the transcript of which is requested 
                for review.
                  (F) Members and Committee Staff may discuss 
                and disclose such matters as otherwise directed 
                by the Committee.
    (b) Non-Disclosure Agreement.--
          (1) Generally.--All Committee Staff must, before 
        joining the Committee, agree in writing, as a condition 
        of employment, not to divulge or cause to be divulged 
        any classified information which comes into such 
        person's possession while a member of the Committee 
        Staff, to any person not a Member of the Committee or 
        the Committee Staff, except as authorized by the 
        Committee in accordance with the Rules of the House and 
        these rules.
          (2) Other Requirements.--In the event of the 
        termination of the Committee, Members and Committee 
        Staff must follow any determination by the House of 
        Representatives with respect to the protection of 
        classified information received while a Member of the 
        Committee or as Committee Staff.
          (3) Requests for Testimony of Staff.--
                  (A) All Committee Staff must, as a condition 
                of employment agree in writing to notify the 
                Committee immediately of any request for 
                testimony received while a member of the 
                Committee Staff, or at any time thereafter, 
                concerning any classified information received 
                by such person while a member of the Committee 
                Staff.
                  (B) Committee Staff shall not disclose, in 
                response to any such request for testimony, any 
                such classified information, except as 
                authorized by the Committee in accordance with 
                the Rules of the House and these rules.
                  (C) In the event of the termination of the 
                Committee, Committee Staff will be subject to 
                any determination made by the House of 
                Representatives with respect to any requests 
                for testimony involving classified information 
                received while a member of the Committee Staff.

                        13. CLASSIFIED MATERIAL

    (a) Receipt of Classified Information.--
          (1) Generally.--In the case of any information that 
        has been classified under established security 
        procedures and submitted to the Committee by any 
        source, the Committee shall receive such classified 
        information as executive session material.
          (2) Staff Receipt of Classified Materials.--For 
        purposes of receiving classified information, the 
        Committee Staff is authorized to accept information on 
        behalf of the Committee.
    (b) Non-Disclosure of Classified Information.--Any 
classified information received by the Committee, from any 
source, shall not be disclosed to any person not a Member of 
the Committee or the Committee Staff, or otherwise released, 
except as authorized by the Committee in accord with the Rules 
of the House and these rules.

      14. PROCEDURES RELATED TO HANDLING OF CLASSIFIED INFORMATION

    (a) Security Measures.--
          (1) Strict Security.--The Committee's offices shall 
        operate under strict security procedures administered 
        by the Director of Security and Registry of the 
        Committee under the direct supervision of the Staff 
        Director.
          (2) U.S. Capitol Police Presence Required.--At least 
        one U.S. Capitol Police officer shall be on duty at all 
        times outside the entrance to Committee offices to 
        control entry of all persons to such offices.
          (3) Identification Required.--Before entering the 
        Committee's offices all persons shall identify 
        themselves to the U.S. Capitol Police officer described 
        in paragraph (2) and to a Member of the Committee or 
        Committee Staff.
          (4) Maintenance of Classified Materials.--Classified 
        documents shall be segregated and maintained in 
        approved security storage locations.
          (5) Examination of Classified Materials.--Classified 
        documents in the Committee's possession shall be 
        examined in an appropriately secure manner.
          (6) Prohibition on Removal of Classified Materials.--
        Removal of any classified document from the Committee's 
        offices is strictly prohibited, except as provided by 
        these rules.
          (7) Exception.--Notwithstanding the prohibition set 
        forth in paragraph (6), a classified document, or copy 
        thereof, may be removed from the Committee's offices in 
        furtherance of official Committee business. Appropriate 
        security procedures shall govern the handling of any 
        classified documents removed from the Committee's 
        offices.
    (b) Access to Classified Information by Member.--All 
Members of the Committee shall at all times have access to all 
classified papers and other material received by the Committee 
from any source.
    (c) Need-to-know.--
          (1) Generally.--Committee Staff shall have access to 
        any classified information provided to the Committee on 
        a strict ``need-to-know'' basis, as determined by the 
        Committee, and under the Committee's direction by the 
        Staff Director.
          (2) Appropriate Clearances Required.--Committee Staff 
        must have the appropriate clearances prior to any 
        access to compartmented information.
    (d) Oath.--
          (1) Requirement.--Before any Member of the Committee, 
        or the Committee Staff, shall have access to classified 
        information, the following oath shall be executed:

          I do solemnly swear (or affirm) that I will not 
        disclose or cause to be disclosed any classified 
        information received in the course of my service on the 
        House Permanent Select Committee on Intelligence, 
        except when authorized to do so by the Committee or the 
        House of Representatives.

          (2) Copy.--A copy of such executed oath shall be 
        retained in the files of the Committee.
    (e) Registry.--
          (1) Generally.--The Committee shall maintain a 
        registry that:
                  (A) Provides a brief description of the 
                content of all classified documents provided to 
                the Committee by the executive branch that 
                remain in the possession of the Committee; and
                  (B) Lists by number all such documents.
          (2) Designation by the Staff Director.--The Staff 
        Director shall designate a member of the Committee 
        Staff to be responsible for the organization and daily 
        maintenance of such registry.
          (3) Availability.--Such registry shall be available 
        to all Members of the Committee and Committee Staff.
    (f) Requests by Members of Other Committees.--Pursuant to 
the Rules of the House, Members who are not Members of the 
Committee may be granted access to such classified transcripts, 
records, data, charts, or files of the Committee, and be 
admitted on a non-participatory basis to classified hearings of 
the Committee involving discussions of classified material in 
the following manner:
          (1) Written Notification Required.--Members who 
        desire to examine classified materials in the 
        possession of the Committee, or to attend Committee 
        hearings or briefings on a non-participatory basis, 
        must notify the Chief Clerk of the Committee in 
        writing.
          (2) Committee Consideration.--The Committee shall 
        consider each such request by non-Committee Members at 
        the earliest practicable opportunity. The Committee 
        shall determine, by roll call vote, what action it 
        deems appropriate in light of all of the circumstances 
        of each request. In its determination, the Committee 
        shall consider:
                  (A) The sensitivity to the national defense 
                or the confidential conduct of the foreign 
                relations of the United States of the 
                information sought;
                  (B) The likelihood of its being directly or 
                indirectly disclosed;
                  (C) The jurisdictional interest of the Member 
                making the request; and
                  (D) Such other concerns, constitutional or 
                otherwise, as may affect the public interest of 
                the United States.
          (3) Committee Action.--After consideration of the 
        Member's request, the Committee may take any action it 
        may deem appropriate under the circumstances, including 
        but not limited to:
                  (A) Approving the request, in whole or part;
                  (B) Denying the request;
                  (C) Providing the requested information or 
                material in a different form than that sought 
                by the Member; or
                  (D) Making the requested information or 
                material available to all Members of the House.
          (4) Requirements for Access by Non-Committee 
        Members.--Prior to a non-Committee Member being given 
        access to classified information pursuant to this 
        subsection, the requesting Member shall:
                  (A) Provide the Committee a copy of the oath 
                executed by such Member pursuant to House Rule 
                XXIII, clause 13; and
                  (B) Agree in writing not to divulge any 
                classified information provided to the Member 
                pursuant to this subsection to any person not a 
                Member of the Committee or the Committee Staff, 
                except as otherwise authorized by the Committee 
                in accordance with the Rules of the House and 
                these rules.
          (5) Consultation Authorized.--When considering a 
        Member's request, the Committee may consult the 
        Director of National Intelligence and such other 
        officials it considers necessary.
          (6) Finality of Committee Decision.--
                  (A) Should the Member making such a request 
                disagree with the Committee's determination 
                with respect to that request, or any part 
                thereof, that Member must notify the Committee 
                in writing of such disagreement.
                  (B) The Committee shall subsequently consider 
                the matter and decide, by record vote, what 
                further action or recommendation, if any, the 
                Committee will take.
    (g) Advising the House or Other Committees.--Pursuant to 
Section 501 of the National Security Act of 1947 (50 U.S.C. 
413), and to the Rules of the House, the Committee shall call 
to the attention of the House, or to any other appropriate 
committee of the House, those matters requiring the attention 
of the House, or such other committee, on the basis of the 
following provisions:
          (1) By Request of Committee Member.--At the request 
        of any Member of the Committee to call to the attention 
        of the House, or any other committee, executive session 
        material in the Committee's possession, the Committee 
        shall meet at the earliest practicable opportunity to 
        consider that request.
          (2) Committee Consideration of Request.--The 
        Committee shall consider the following factors, among 
        any others it deems appropriate:
                  (A) The effect of the matter in question on 
                the national defense or the foreign relations 
                of the United States;
                  (B) Whether the matter in question involves 
                sensitive intelligence sources and methods;
                  (C) Whether the matter in question otherwise 
                raises questions affecting the national 
                interest; and
                  (D) Whether the matter in question affects 
                matters within the jurisdiction of another 
                Committee of the House.
          (3) Views of Other Committees.--In examining such 
        factors, the Committee may seek the opinion of Members 
        of the Committee appointed from standing committees of 
        the House with jurisdiction over the matter in 
        question, or submissions from such other committees.
          (4) Other Advice.--The Committee may, during its 
        deliberations on such requests, seek the advice of any 
        executive branch official.
    (h) Reasonable Opportunity To Examine Materials.--Before 
the Committee makes any decision regarding any request for 
access to any classified information in its possession, or a 
proposal to bring any matter to the attention of the House or 
another committee, Members of the Committee shall have a 
reasonable opportunity to examine all pertinent testimony, 
documents, or other materials in the Committee's possession 
that may inform their decision on the question.
    (i) Notification to the House.--The Committee may bring a 
matter to the attention of the House when, after consideration 
of the factors set forth in this rule, it considers the matter 
in question so grave that it requires the attention of all 
Members of the House, and time is of the essence, or for any 
reason the Committee finds compelling.
    (j) Method of Disclosure to the House.--
          (1) Should the Committee decide by roll call vote 
        that a matter requires the attention of the House as 
        described in subsection (i), it shall make arrangements 
        to notify the House promptly.
          (2) In such cases, the Committee shall consider 
        whether:
                          (A) To request an immediate secret 
                        session of the House (with time equally 
                        divided between the Majority and the 
                        Minority); or
                          (B) To publicly disclose the matter 
                        in question pursuant to clause 11(g) of 
                        House Rule X.
    (k) Requirement To Protect Sources and Methods.--In 
bringing a matter to the attention of the House, or another 
committee, the Committee, with due regard for the protection of 
intelligence sources and methods, shall take all necessary 
steps to safeguard materials or information relating to the 
matter in question.
    (l) Availability of Information to Other Committees.--The 
Committee, having determined that a matter shall be brought to 
the attention of another committee, shall ensure that such 
matter, including all classified information related to that 
matter, is promptly made available to the chairman and ranking 
minority member of such other committee.
    (m) Provision of Materials.--The Director of Security and 
Registry for the Committee shall provide a copy of these rules, 
and the applicable portions of the Rules of the House of 
Representatives governing the handling of classified 
information, along with those materials determined by the 
Committee to be made available to such other committee of the 
House or non-Committee Member.
    (n) Ensuring Clearances and Secure Storage.--The Director 
of Security and Registry shall ensure that such other committee 
or non-Committee Member receiving such classified materials may 
properly store classified materials in a manner consistent with 
all governing rules, regulations, policies, procedures, and 
statutes.
    (o) Log.--The Director of Security and Registry for the 
Committee shall maintain a written record identifying the 
particular classified document or material provided to such 
other committee or non-Committee Member, the reasons agreed 
upon by the Committee for approving such transmission, and the 
name of the committee or non-Committee Member receiving such 
document or material.
    (p) Miscellaneous Requirements.--
          (1) Staff Director's Additional Authority.--The Staff 
        Director is further empowered to provide for such 
        additional measures, which he or she deems necessary, 
        to protect such classified information authorized by 
        the Committee to be provided to such other committee or 
        non-Committee Member.
          (2) Notice to Originating Agency.--In the event that 
        the Committee authorizes the disclosure of classified 
        information provided to the Committee by an agency of 
        the executive branch to a non-Committee Member or to 
        another committee, the Chairman may notify the 
        providing agency of the Committee's action prior to the 
        transmission of such classified information.

                        15. LEGISLATIVE CALENDAR

    (a) Generally.--The Chief Clerk, under the direction of the 
Staff Director, shall maintain a printed calendar that lists:
          (1) The legislative measures introduced and referred 
        to the Committee;
          (2) The status of such measures; and
          (3) Such other matters that the Committee may 
        require.
    (b) Revisions to the Calendar.--The calendar shall be 
revised from time to time to show pertinent changes.
    (c) Availability.--A copy of each such revision shall be 
furnished to each Member, upon request.
    (d) Consultation With Appropriate Government Entities.--
Unless otherwise directed by the Committee, legislative 
measures referred to the Committee may be referred by the Chief 
Clerk to the appropriate department or agency of the Government 
for reports thereon.

                         16. COMMITTEE WEB SITE

    The Chairman shall maintain an official Committee web site 
for the purpose of furthering the Committee's legislative and 
oversight responsibilities, including communicating information 
about the Committee's activities to Committee Members and other 
Members of the House.

                    17. MOTIONS TO GO TO CONFERENCE

    In accordance with clause 2(a) of House Rule XI, the 
Chairman is authorized and directed to offer a privileged 
motion to go to conference under clause 1 of House Rule XXII 
whenever the Chairman considers it appropriate.

                          18. COMMITTEE TRAVEL

    (a) Authority.--The Chairman may authorize Members and 
Committee Staff to travel on Committee business.
    (b) Requests.--
          (1) Member Requests.--Members requesting 
        authorization for such travel shall state the purpose 
        and length of the trip, and shall submit such request 
        directly to the Chairman.
          (2) Committee Staff Requests.--Committee Staff 
        requesting authorization for such travel shall state 
        the purpose and length of the trip, and shall submit 
        such request through their supervisors to the Staff 
        Director and the Chairman.
    (c) Notification to Members.--
          (1) Generally.--Members shall be notified of all 
        foreign travel of Committee Staff not accompanying a 
        Member.
          (2) Content.--All Members are to be advised, prior to 
        the commencement of such travel, of its length, nature, 
        and purpose.
    (d) Trip Reports.--
          (1) Generally.--A full report of all issues discussed 
        during any travel shall be submitted to the Chief Clerk 
        of the Committee within a reasonable period of time 
        following the completion of such trip.
          (2) Availability of Reports.--Such report shall be:
                  (A) Available for review by any Member or 
                appropriately cleared Committee Staff; and
                  (B) Considered executive session material for 
                purposes of these rules.
    (e) Limitations on Travel.--
          (1) Generally.--The Chairman is not authorized to 
        permit travel on Committee business of Committee Staff 
        who have not satisfied the requirements of subsection 
        (d) of this rule.
          (2) Exception.--The Chairman may authorize Committee 
        Staff to travel on Committee business, notwithstanding 
        the requirements of subsections (d) and (e) of this 
        rule,
                  (A) At the specific request of a Member of 
                the Committee; or
                  (B) In the event there are circumstances 
                beyond the control of the Committee Staff 
                hindering compliance with such requirements.
    (f) Definitions.--For purposes of this rule the term 
``reasonable period of time'' means:
          (1) No later than 60 days after returning from a 
        foreign trip; and
          (2) No later than 30 days after returning from a 
        domestic trip.

                        19. DISCIPLINARY ACTIONS

    (a) Generally.--The Committee shall immediately consider 
whether disciplinary action shall be taken in the case of any 
member of the Committee Staff alleged to have failed to conform 
to any rule of the House of Representatives or to these rules.
    (b) Exception.--In the event the House of Representatives 
is:
          (1) In a recess period in excess of 3 days; or
          (2) Has adjourned sine die; the Chairman of the full 
        Committee, in consultation with the Ranking Minority 
        Member, may take such immediate disciplinary actions 
        deemed necessary.
    (c) Available Actions.--Such disciplinary action may 
include immediate dismissal from the Committee Staff.
    (d) Notice to Members.--All Members shall be notified as 
soon as practicable, either by facsimile transmission or 
regular mail, of any disciplinary action taken by the Chairman 
pursuant to subsection (b).
    (e) Reconsideration of Chairman's Actions.--A majority of 
the Members of the full Committee may vote to overturn the 
decision of the Chairman to take disciplinary action pursuant 
to subsection (b).

                  20. BROADCASTING COMMITTEE MEETINGS

    Whenever any hearing or meeting conducted by the Committee 
is open to the public, a majority of the Committee may permit 
that hearing or meeting to be covered, in whole or in part, by 
television broadcast, radio broadcast, and still photography, 
or by any of such methods of coverage, subject to the 
provisions and in accordance with the spirit of the purposes 
enumerated in the Rules of the House.

       21. COMMITTEE RECORDS TRANSFERRED TO THE NATIONAL ARCHIVES

    (a) Generally.--The records of the Committee at the 
National Archives and Records Administration shall be made 
available for public use in accordance with the Rules of the 
House of Representatives.
    (b) Notice of Withholding.--The Chairman shall notify the 
Ranking Minority Member of any decision, pursuant to the Rules 
of the House of Representatives, to withhold a record otherwise 
available, and the matter shall be presented to the full 
Committee for a determination of the question of public 
availability on the written request of any Member of the 
Committee.

                          22. CHANGES IN RULES

    (a) Generally.--These rules may be modified, amended, or 
repealed by vote of the full Committee.
    (b) Notice of Proposed Changes.--A notice, in writing, of 
the proposed change shall be given to each Member at least 48 
hours prior to any meeting at which action on the proposed rule 
change is to be taken.

                                  <all>

</pre></body></html>
